July 31, 2020

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, DC 20543
Re:

No. 19-351, Federal Republic of Germany, A Foreign State, and Stiftung Preussischer
Kulturbesitz, an Instrumentality of a Foreign State v. Alan Philipp, et al.

Dear Clerk Harris:
In accordance with Rule 37(3)(a) of the Rules of the Supreme Court of the United States,
Respondents hereby grant blanket consent to the filing of amicus curiae in support of either
or neither party in this matter.
Thank you very much for your time and assistance in this matter.
Very truly yours,

/s/ Nicholas M. O'Donnell
Direct line: 617-338-2814
nodonnell@sullivanlaw.com
cc: Jonathan Freiman (by e-mail)

